Karl A. Racine

Brian E. Frosh

Attorney General for the
District of Columbia

Attorney General of Maryland

The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, D.C. 20543
October 6, 2020
Re:

Donald J. Trump v. District of Columbia, et al., No. 20-331
(Request for an extension of time to file a response to a petition for a writ of certiorari)

Dear Mr. Harris:
The response of the District of Columbia and the State of Maryland to the petition for a writ of
certiorari is currently due on October 14, 2020. Respondents respectfully request a 45-day
extension of time to, and including, November 28, 2020, in which to file their response. An
extension is necessary due to the press of appeals our offices are handling on behalf of our
residents, as well as an increase in litigation and a decrease in resources due to the COVID-19
pandemic.
Counsel for petitioner consents to the requested extension.
Respectfully Submitted,
KARL A. RACINE
Attorney General for the District of Columbia

BRIAN E. FROSH
Attorney General of Maryland

By:

/s/ Loren L. AliKhan
LOREN L. ALIKHAN
Solicitor General
Counsel of Record

By:

cc:

Jeffrey B. Wall, Acting Solicitor General
Counsel for Petitioner
(by first-class mail and email at SupremeCtBriefs@usdoj.gov)

/s/ Steven M. Sullivan
STEVEN M. SULLIVAN
Solicitor General

